HHS/OIG-Audit--"Review of New Hampshire's Procedures for Reporting Earnings and Collecting Child Support from Independent Contractors, (A-01-98-02503)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of New Hampshire's Procedures for Reporting Earnings and Collecting Child Support from Independent Contractors," (A-01-98-02503)
May 25, 1999
Complete
Text of Report is available in PDF format (1.43 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Federal law requires States to have a program in place for businesses to report newly hired employees for the purpose
of collecting child support payments. This final report points out that the State of New Hampshire took this a step further
by requiring businesses to also report the hiring of independent contractors. As a result, the State was able to identify
income of noncustodial parents working as independent contractors and increase child support collections by an estimated
$1.065 million for the year ended October 12, 1998. We are recommending that the Administration for Children and Families
consider the merits of encouraging other States to require businesses to report the hiring of independent contractors.